                                                        (j~ SECu
                                                              ~
                                                       ~
                                                       \h~1I1111~~
                                                         -vIST'j.J..
                                       SOCIAL               SECURITY
                                           Office of the Inspector         General
MEMORANDUM
Date:      May 30,      2001                                                                      Refer   To:   ICN   31150-23-162

           Larry G. Massanari
To:        Acting Commissioner

             of Social Security

           I nspector   General




Subject:   Review of the Social Security    Administration's          Office of Child Support             Enforcement         Pilot
           Evaluation (A-O1-00-20006)



           The attached final report presents the results of our evaluation. Our objective was to
           determine whether the Social Security Administration's assessment of the benefits and
           risks of using online, read-only access to Office of Childhood Support Enforcement data
           was accurate and complete.

           Please comment within 60 days from the date of this memorandum on corrective action
           taken or planned on each recommendation. If you wish to discuss the final report,
           please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
           General for Audit, at (410) 965-9700.




                                                           ~~.-.<--
                                                                       James   G.   Huse,   Jr.


           Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



      REVIEW OF THE SOCIAL
    SECURITY ADMINISTRATION’S
     OFFICE OF CHILD SUPPORT
       ENFORCEMENT PILOT
           EVALUATION

   May 2001          A-01-00-20006



EVALUATION REPORT





                .

                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  � Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  � Promote economy, effectiveness, and efficiency within the agency.
  � Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  � Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  � Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:


  � Independence to determine what reviews to perform.

  � Access to all information necessary for the reviews.

  � Authority to publish findings and recommendations based on the reviews.


                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                 Executive Summary

OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA)
assessment of the benefits and risks of using online, read-only access to the Office of
Childhood Support Enforcement (OCSE) data was accurate and complete.

BACKGROUND
In accordance with section 316 of the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Public Law 104-193), the Department of Health and Human
Services’ OCSE developed a database, known as the National Directory of New Hires
(NDNH), to aid in enforcing child support orders. This Act, as well as the Privacy Act,
also provide for the disclosure of the information in the NDNH database to SSA for its
use in preventing and reducing payment errors. The NDNH contains:

   1. a registry of all newly hired employees in the nation;
   2. quarterly wage information; and
   3. quarterly unemployment compensation information.

OCSE data has been shared with SSA for quarterly computer matches since 1998. In
addition to this quarterly matching, SSA implemented online access to the NDNH in all
its field offices (FO) during the first quarter of calendar year (CY) 2001. The query is
designed to give FO staff online, read-only access to limited wage, new hire and
unemployment information for those individuals who have filed for Supplemental
Security Income (SSI) benefits.

Before establishing this access nationwide, SSA piloted access to the NDNH in 50 FOs.
The pilot period was from May 8, 2000 through June 30, 2000 and allowed SSA
personnel to query the NDNH database online. The purpose of the pilot was to test the
access controls, monitor the impact the query has on OCSE operations, and determine
the impact of the query on payment accuracy under the SSI program.

During the pilot, SSA staff used OCSE data to assess whether claimants for SSI
benefits had unreported income. Current means of verification are done after
individuals are receiving SSI payments. Verifying wages and other income before
deciding whether an applicant is eligible for SSI is expected to improve payment
accuracy for SSA, reducing both overpayments and underpayments to recipients. In
addition, it is expected to reduce the number of overpayment recovery activities SSA
must process.

During development of SSA’s query access, OCSE staff expressed concerns that SSA’s
querying OCSE data would compromise the confidentiality of the data and/or create a
perception that data in the NDNH is no longer confidential. OCSE staff were concerned


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                      i
that such a perception could, in turn, jeopardize OCSE’s use of the Federal Parent
Locator Service. The U.S. Office of Management and Budget also shared OCSE’s
concerns. As a result of these concerns, the Office of the Inspector General was
requested to conduct an independent assessment of SSA’s OCSE pilot evaluation.

RESULTS OF REVIEW
Our review tested specific features of system security over the OCSE query and
assessed SSA’s calculation of return on investment (ROI) from OCSE data access.

System Security

We found two vulnerabilities with SSA’s OCSE permission module which was
developed to ensure that SSA staff could only access records with an SSI business
relationship. Contrary to access specifications, our tests showed that authorized FO
personnel could:

•	 Gain query access for individuals who were not receiving SSI benefits, but who were
   receiving benefits from SSA under a separate entitlement program. SSA corrected
   this issue as soon as we brought it to their attention.

•	 Gain query access for individuals who were representative payees for SSI
   recipients, but who did not receive SSI benefits themselves. When we brought this
   to their attention, SSA staff reported that they would take corrective action to
   implement a system modification prior to the national rollout of the online query.

Return on Investment

During the course of our evaluation, several issues came to our attention regarding the
ROI portion of SSA’s evaluation:

•	 The FOs involved in the OCSE pilot were not selected randomly. Therefore, SSA
   was not able to make a statistical projection of ROI based on the pilot results;
   however, SSA’s report did not identify the ROI as a non-statistical estimate.

•	 In addition to OCSE data, SSA obtains wage, unemployment, and other data
   through a data access system known as Social Security Administration Access to
   State Records Online (SASRO). Under SASRO, SSA negotiates online access to
   data maintained at State agencies. Many SSA FOs have and use SASRO, including
   some of the same FOs selected for the OCSE pilot. Since SASRO provides some of
   the same information as the OCSE query, any savings occurring from the OCSE
   pilot could possibly have also been obtained through SASRO. Since the possibility
   of duplicative savings was not built into SSA’s OCSE ROI calculations, the ROI
   could be overstated or duplicative of savings reported by SSA as a result of SASRO.
   SSA staff, however, does not believe that the ROI developed during the pilot was
   inflated.


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                     ii
CONCLUSIONS AND RECOMMENDATIONS
Our review did not identify any issues that would cause us to recommend against SSA’s
implementation of the online query in all its FOs. However, during our limited testing of
SSA’s system security, we identified security weaknesses, which indicated that SSA
had not conducted sufficient testing prior to implementing the pilot. Also, we have some
general concerns regarding SSA’s ROI calculation. In response to our findings, SSA
initiated prompt corrective actions to address the security weaknesses we identified.
Also, SSA had planned to perform an additional study in 2001 to assess the costs and
benefits of nationwide access to the online OCSE query.

We recommend that SSA:

•	 continue to monitor and test the security of the OCSE query during the national
   rollout to ensure access weaknesses do not exist; and

•	 ensure that the savings reported for SSA’s initiatives for online access under
   SASRO are factored into its planned ROI analysis of nationwide access to OCSE
   databases.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our first recommendation. With regard
to our second recommendation, SSA no longer plans to conduct a study to assess the
cost and benefits of nationwide online OCSE access.

OIG RESPONSE
Since SSA no longer plans to conduct a nationwide ROI study, when disclosing the
results of the ROI based on the pilot, SSA should note that the ROI is not a statistical
projection and may duplicate reported savings from SASRO.




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                      iii
                                                                    Table of Contents

                                                                                                              Page


INTRODUCTION .................................................................................................... 1


RESULTS OF REVIEW.......................................................................................... 5


SYSTEM SECURITY.............................................................................................. 5


    •    NDNH Access for Individuals Receiving OASDI Only.................................. 5


    •    NDNH Access for Representative Payees................................................... 6


    •    Additional Access Tests............................................................................... 6


RETURN ON INVESTMENT .................................................................................. 7


    •    Impact of FOs Selected for OCSE Pilot on ROI........................................... 8


    •    Overlap Between OCSE and SASRO Data ................................................. 9


CONCLUSIONS AND RECOMMENDATIONS .................................................... 10


APPENDICES


APPENDIX A – Agency Comments


APPENDIX B – OIG Contacts and Staff Acknowledgments





Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)
                                                                  Acronyms

CR             Claims Representative


CY             Calendar Year


FO             Field Office


MOA            Memorandum of Agreement


NDNH           National Directory of New Hires


OASDI          Old-Age, Survivors and Disability Insurance


OCSE           Office of Child Support Enforcement


OIG            Office of the Inspector General


OMB            Office of Management and Budget


OQA            Office of Quality Assurance and Performance Assessment


ROI            Return on Investment


SASRO          Social Security Administration Access to State Records Online


SSA            Social Security Administration


SSI            Supplemental Security Income


SSN            Social Security number


UI             Unemployment Insurance





Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)
                                                                    Introduction

OBJECTIVE
Our objective was to determine whether the Social Security Administration’s (SSA)
assessment of the benefits and risks of using online, read-only access to the Office of
Childhood Support Enforcement (OCSE) data was accurate and complete.

BACKGROUND
The Old-Age, Survivors and Disability Insurance (OASDI) program provides retirement
benefits to insured individuals who have reached the minimum retirement age,
survivors’ benefits to dependents of insured wage earners in the event the family wage
earner dies, and disability benefits to disabled wage earners and their families. The
Supplemental Security Income (SSI) program provides income to financially needy
individuals who are aged, blind, or disabled.

In accordance with section 316 of the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 (Public Law 104-193), the United States Department of
Health and Human Services’ OCSE developed a database to aid in enforcing child
support orders. This database, known as the National Directory of New Hires (NDNH),
contains the following information:

      1. 	 A registry of all newly hired employees in the nation (a compilation of all “W-4s”
           filed by employers).
      2. Quarterly wage information.
      3. Quarterly unemployment compensation information.

Section 316 of Public Law 104-193 and the Privacy Act1 also provide for the disclosure
of the information in the NDNH database to SSA for its use in preventing and reducing
payment errors. SSA began using OCSE wage data in 1998 to conduct quarterly
computer matches with its program benefit files. These quarterly matches gather data
from all 50 States, the District of Columbia and Federal agencies. If there is a
discrepancy detected during the matching operation, an alert is generated and
processed in a SSA field office (FO). This matching operation identifies cases with new
or increased wage and unemployment insurance (UI) income. SSA reported that the
September 1998 computer match with OCSE data prevented an estimated $6.5 million
in future overpayments and detected $17.6 million in recoverable overpayments.

As a supplement to the quarterly OCSE wage matches, in April 2000, SSA started a
project to evaluate the cost effectiveness of having online access to the NDNH
database. Online access to NDNH data would enable SSA to assess factors important
for determining a SSI applicant’s eligibility and payment amount before benefits are

1
    5 U.S.C. 552a(b)(3) and 552a(e)(4)(D)


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                           1
paid. Currently, SSA’s means of wage and income verification are to rely on self-
reporting by the SSI recipients and to conduct computer matches after individuals
receive SSI payments. Online access to OCSE data is expected to allow SSA to verify
wages and other income prior to deciding whether an applicant is eligible for SSI
benefits. Verification of this information prior to making payments is expected to
improve payment accuracy for SSA, reducing both overpayments and underpayments
to recipients. In addition, it is expected to reduce the number of overpayment recovery
activities SSA must process.

Office of Child Support Enforcement Pilot

Between May 8, 2000 and June 30, 2000, SSA conducted a pilot at 50 FOs which
allowed SSA personnel to query the NDNH database to detect potential unstated
income. The purpose of the pilot was to test the access controls, monitor the impact the
query has on OCSE operations, and determine the impact of the query on SSA’s
programs. A notice announcing the query was published in the Federal Register on
September 14, 1999.

Under the pilot, FO staff were allowed read-only query access to OCSE wage, new hire
and unemployment information for those individuals who have filed claims for SSI
benefits. During the pilot, SSA claims representatives (CR) were told to query the
NDNH on claims prior to making a decision regarding the claimant or recipient’s
eligibility to SSI benefits. Specific situations where SSA would use the query are:

•   prior to awarding SSI payments in certain circumstances;

•   prior to releasing large underpayments; and

•	 when an interview/review indicates that there may be unreported/undisclosed
   income.

Access Security for Online OCSE Query

Access to SSA’s automated system for processing SSI claims is controlled by TOP
SECRET—a commercially available product used by many private and public
organizations to control access to computer software programs and data files. TOP
SECRET uses a combination of personal identification numbers, passwords, profiles,
data sets, and transaction identifiers to control access. TOP SECRET enables SSA to
restrict user access to the minimum amount required to perform their job duties (least
privilege) and responsibilities. This provides the first line of defense to prevent
unauthorized access and supports the Agency’s compliance with the Privacy Act of
1974.

To gain access to TOP SECRET, employees must complete a form requesting access
and submit it to their security officer. The applications are reviewed, and approved
users are assigned a unique personal identification number, password and the systems


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                     2
resources they can access. Over and above SSA’s standard system security controls,
SSA implemented a permission module to limit what data FO staff can access from the
NDNH. SSA’s access to NDNH data was designed to be limited to those individuals
who have a SSI business relationship with SSA. A SSI business relationship is defined
as having a SSI application or payment issue pending with SSA. Access is restricted to
only those records in the NDNH where the Social Security number (SSN) in the NDNH
matches the SSN on a SSI claim or record. The mechanism that “checks” the business
relationship is referred to as the permission module.

Further security measures were taken to ensure that SSA’s access to NDNH data is
read-only. While SSA’s access is online in the respect that is it real-time data, SSA staff
are not actually accessing the OCSE database in an interactive manner. Specifically,
SSA staff cannot modify, manipulate, add to, or delete data from the OCSE database.

Data Obtained in an NDNH Query

A response to a NDNH query is treated as a “lead” by SSA’s FO staff. SSA cannot rely
solely on the data obtained from a NDNH query to deny or decrease the payment
amount of a SSI recipient. When SSA receives data in response to a NDNH query,
SSA verifies the information obtained with the recipient and/or the supplier of the
information. This verification ensures that data used by SSA is accurate and that
privacy rights specified in the Computer Matching and Privacy Protection Act are
respected.

The query to NDNH has an audit trail associated with it, as is standard practice for SSA.
The audit trail provides for the collection and storage of usage data in SSA’s records.
The information captured includes who requested the query; the office code; the SSN
accessed; and the type of information accessed (i.e., wages, new hire, and
unemployment).

OCSE Data Privacy Concerns

Staff from OCSE participated in the SSA workgroup that developed SSA’s query access
to OCSE data. During development of the query, OCSE staff expressed concerns
about using online access to facilitate the data exchange. Specifically, OCSE staff were
concerned that querying the data would compromise the confidentiality of the data and
create a perception that OCSE data is no longer confidential among OCSE’s customers.
OCSE staff was concerned that this perception could, in turn, jeopardize OCSE’s use of
the Federal Parent Locator Service—which is mission critical for OCSE. The U.S.
Office of Management and Budget (OMB) also shared these concerns.

To address these privacy concerns, OCSE and SSA have taken steps to ensure that
the read-only query sustains the protections provided in all statutes relating to agency
use, collection and disclosure of personal information in accordance with the
requirements of the Privacy Act of 1974 (5 United States Code 552a).




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                      3
SCOPE AND METHODOLOGY
Due to concerns over SSA maintaining the privacy of OCSE data, the Office of the
Inspector General was requested to conduct an independent assessment of SSA’s
OCSE pilot evaluation. To accomplish our objective, we:

•	 Interviewed staff from SSA’s Office of Disclosure Policy, Office of Quality Assurance
   and Performance Assessment (OQA), and Office of Systems.

•	 Interviewed staff members from three SSA FOs who had access to both OCSE and
   Social Security Administration Access to State Records Online (SASRO).

•	 Conducted site visits at two SSA FOs to test access security over the OCSE pilot.
   Specifically, we assessed whether staff could access the NDNH data who were not
   supposed to be granted access. Also, we requested that CRs query the NDNH for
   individuals who:
   - received OASDI benefits, but do not have SSI claims;
   -	 previously received SSI benefits, but were not receiving payments at the time of
       our review;
   - did not receive any type of Social Security benefits;
   - are parents of SSI recipients, but do not have SSI claims of their own; and
   -	 are representative payees for SSI recipients, but do not have SSI claims
       themselves.

•	 Reviewed relevant laws, regulations, SSA guidelines, and the Memorandum of
   Agreement (MOA) on Privacy Act issues for electronic online single query access
   between OCSE and SSA (SSA # 1079).

•	 Reviewed SSA Office of Systems documentation detailing the security features in
   place for the OCSE pilot.

•   Reviewed SSA’s pilot evaluation report.

We did not assess, and do not express an opinion on (1) SSA’s nationwide use of the
OCSE online query or (2) SSA’s adherence to its Software Engineering Technology
standards and guidelines for developing the online query. Our review was not designed
to identify all potential vulnerabilities. We limited our review to a general examination of
the return on investment (ROI) calculation and testing of specific security features in
place at the time of the OCSE pilot.

We performed our review in Boston, Massachusetts between May and December 2000.
The entities evaluated were SSA’s FOs under the Deputy Commissioner for Operations;
the Office of Systems Development and Design under the Deputy Commissioner for
Systems; and the OQA under the Deputy Commissioner for Finance, Assessment and
Management. This review was conducted in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                      4
                                                        Results of Review

Our review tested specific features of system security over the OCSE query and
assessed SSA’s calculation of ROI from OCSE data access. We found weaknesses in
SSA’s system security access controls that were contrary to established guidelines.
Also, we have concerns regarding SSA’s calculation of ROI. However, these
weaknesses and concerns do not present barriers to SSA’s national rollout of the online
OCSE query.

SYSTEM SECURITY
We found two vulnerabilities with SSA’s OCSE permission module which was
developed to ensure that SSA staff could only access records with an SSI business
relationship. Contrary to access specifications, our tests showed that FO personnel
could:

•	 Gain query access for individuals who were not receiving SSI benefits, but who were
   receiving benefits from SSA under a separate entitlement program. SSA corrected
   this issue as soon as we brought it to their attention.

•	 Gain query access for individuals who were representative payees for SSI
   recipients, but who did not receive SSI benefits themselves. When we brought this
   to their attention, SSA staff reported that they would take corrective action to
   implement a system modification prior to the national rollout of the online query.

NDNH Access for Individuals Receiving OASDI Only

Our tests showed that CRs could, in violation of systems security requirements, gain
query access for individuals receiving OASDI benefits only. After we advised SSA staff
of the problem, they reported that they corrected the weakness immediately. Our
follow-up tests indicated that SSA did correct this weakness.

During a site visit at 1 of the 50 pilot FOs, we provided a CR with the SSNs of
5 beneficiaries who were receiving OASDI benefits, but who did not receive SSI
payments. Contrary to program guidelines, the CR was able to obtain NDNH data from
the OCSE query for these 5 beneficiaries. Under the MOA and security features
established, the CR should not have been able to obtain this information. We notified
SSA of this weakness in the OCSE pilot query system and provided the Office of
Systems Design and Development staff with the 5 SSNs used in our tests. SSA staff
agreed that the CR should not have had access to the data since the system had been
specifically designed to preclude access to the records of beneficiaries only receiving
OASDI benefits.




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                   5
SSA staff explained that, since 1985, the “Where Am I” file contains records of
individuals receiving OASDI and/or SSI benefits. The “Where Am I” file is read by using
a SSA standard permission module. SSA reported that the access weakness we
identified occurred because the permission module misinterpreted a “present” return
code as acceptable, when it should have been looking for a code representing “present
and SSI.” SSA staff reported that the permission module was corrected.

After SSA reported to us that this change was made, we conducted further tests to
determine whether the corrective action was implemented. In a subsequent site visit to
a different FO, we had a CR attempt to access the OCSE query system for 3 OASDI
beneficiaries who did not have a SSI business relationship with SSA. Our attempt failed
and we concluded that SSA staff had adjusted the system as they had reported to us.
Based on our follow-up test, NDNH records could no longer be accessed for OASDI
only beneficiaries and this system weakness appears to have been corrected.

NDNH Access for Representative Payees

In certain situations, SSA makes payments to representative payees for the benefit of
SSI recipients—usually because the recipients are incapable of managing their own
funds. In such cases, the representative payee may also be receiving SSI payments,
thereby having his or her own business relationship with SSA. However, there are also
many situations where a representative payee does not have any other business with
SSA other than serving as a representative payee.

During our site visit to a FO involved in the OCSE pilot, we had a CR attempt to access
NDNH records for a representative payee who did not have any other SSI business
relationship with SSA. Based on SSA’s system access security, FO staff should not be
able to access NDNH records for representative payees who do not also have their own
SSI claims. However, our tests found that NDNH queries were available to FO staff for
this individual.

We notified SSA of this weakness in the OCSE pilot query system and provided the
Office of Systems Design and Development staff with the SSN used in our test. SSA
staff agreed that the CR should not have had access to the data since the system had
been designed to preclude access to the records of beneficiaries who did not have their
own SSI claims. SSA staff advised us in March 2001 that the needed modification to
prohibit access to records of these representative payees was implemented. Also, SSA
will continue to monitor systems security and the use of the OCSE query.

Additional Access Tests

In addition to those tests described above, we also conducted access tests for which
the results were in agreement with SSA’s security design. For example, our tests of
access to NDNH data showed that FO personnel could:




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                  6
•	 Gain query access for individuals with terminated SSI records. According to SSA
   staff, this access is allowed because many people receive SSI payments, lose SSI
   eligibility, and later receive benefits again. Also, even though a person is not
   receiving SSI payments at a point in time, eligibility and payments during a prior
   period may be subject to review and revision, and access to the OCSE database
   could facilitate this review. Further, if a person applies for reinstatement of benefits,
   the reinstatement could be impeded in some cases if the permission module did not
   allow immediate access to the NDNH databases.

•	 Not gain query access for individuals with no SSA involvement (no OASDI or SSI
   claims). This is appropriate since it protects the privacy of individuals who are in the
   OCSE database but who do not have a business relationship with SSA.

•	 Not gain query access unless their individual-specific profile was authorized under
   SSA’s access restriction software.

•	 Access records for parents of SSI recipients, regardless of whether the parent also
   had a SSI claim. SSA staff reported that this was necessary to ensure that any
   income deemed2 from the parent to the child recipient was identified through the
   OCSE data.

RETURN ON INVESTMENT
The majority of SSI overpayments stem from recipients’ failure to report wages or
changes in the factors that can affect eligibility or payment amount. The leading source
of payment error in the SSI program is undisclosed wages. If an applicant alleges no
earnings, eligibility and payment amounts are determined on that basis. Of the SSI
payments made for fiscal year 1996, an estimated $365 million in overpayments were
associated with unreported or underreported wages earned by recipients or the
recipients’ deemors. Based on its OCSE pilot, SSA estimates that when pilot data is
used to verify income on a pre-benefit payment basis, SSA realizes an SSI
overpayment improvement of $30.8 million for a ROI ratio of 3.6 to 1.

During the course of our evaluation, several issues came to our attention regarding the
ROI portion of SSA’s evaluation of the OCSE pilot. At the time of our evaluation of the
pilot, SSA was planning a second review to fully assess the costs and benefits of
nationwide OCSE online access. This second study by OQA was to be used to
determine whether the OCSE/SSA data exchange should continue on an ongoing basis.




2
 The term deeming identifies the process of considering another person’s income and resources to be
available for meeting an SSI claimant’s basic needs of food, clothing, and shelter.


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                                 7
Impact of FOs Selected for OCSE Pilot on ROI

According to SSA staff, the FOs involved in the OCSE pilot were not selected randomly.
Therefore, SSA was not able to make a statistical projection based on the pilot results.
However, even though SSA’s report states that the FOs “volunteered to participate” in
the OCSE pilot and were therefore not randomly selected, it does not identify the ROI
as a non-statistical estimate.

Although 5 FOs were selected from each of the 10 SSA regions for a total of 50 OCSE
pilot sites, these offices only represent 36 of the 50 States plus the District of Columbia.
The remaining 14 States are not represented in the OCSE pilot. Also, in SSA’s Atlanta
region, only 2 of the 8 States (25 percent) for that region were represented in the pilot;
whereas 4 regions included at least one FO from each of its designated States. (See
the chart below).


                                              OCSE Pilot Site Offices by SSA Region

                      7


                      6


                      5
   Number of States




                      4


                      3


                      2


                      1


                      0
                                                                  Denver



                                                                             Kansas City



                                                                                           New York
                          Atlanta



                                     Boston



                                               Chicago




                                                                                                                     Franscisco



                                                                                                                                  Seattle
                                                                                                      Philadelphia
                                                         Dallas




                                                                                                                        San




                                                                       Regions


                                    States included in OCSE pilot          States not inlcuded in OCSE Pilot


We consider random sampling to be the best way of providing a reasonably accurate
projection of cost savings; and, if circumstances prevent a statistical estimate, it should
be disclosed. If it is not disclosed, there is a risk that inferences about the ROI may be
misinterpreted as being representative of the entire universe.




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                                                                       8
According to SSA staff, the OCSE pilot sites were not randomly selected for the ROI
calculation because initially the OCSE pilot was only set to evaluate the security over
the online query. Therefore, the 50 FOs were already selected when OMB later
requested an ROI analysis.

Overlap Between OCSE and SASRO Data

In addition to OCSE data, SSA obtains wage, unemployment, and other State data
through a data access system known as SASRO.3 Under SASRO, SSA negotiates
online access to data, maintained at the state level, from human services, vital statistics,
UI, and workers’ compensation agencies. Many SSA FOs have and use SASRO,
including some of the same FOs selected for the OCSE pilot. Since SASRO provides
some of the same information as the OCSE query, any savings occurring from the
OCSE pilot could possibly have been obtained online through SASRO. Such a
possibility was not built into SSA’s ROI calculations and, as a result, those estimates
could be overstated or duplicative of savings realized by SSA as a result of SASRO.

SSA staff do not believe that the ROI developed during the pilot was inflated since the
ROI was based on a comparison between (1) the information found through the OCSE
query and (2) the information SSA would have had without the OCSE query (which may
have included SASRO data).




3
 As of September 2000, SSA had SASRO connections with 66 agencies in 37 States; and 22 of these
connections are for wage and unemployment information.


Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                             9
                                                     Conclusions and
                                                    Recommendations
Our review did not identify any issues that would cause us to recommend against SSA’s
implementation of the online query in all its FOs. However, during our limited testing of
SSA’s system security, we identified security weaknesses, which indicated that SSA
had not conducted sufficient testing prior to implementing the pilot. Also, we have some
general concerns regarding SSA’s ROI calculation. In response to our findings, SSA
initiated prompt corrective actions to address the security weaknesses we identified.
Also, SSA had planned to perform an additional study in 2001 to assess the costs and
benefits of nationwide access to the online OCSE query.

We recommend that SSA:

1. 	 continue to monitor and test the security of the OCSE query during the national
     rollout to ensure access weaknesses do not exist; and

2. 	 ensure that the savings reported for SSA’s initiatives for online access under
     SASRO are factored into its planned ROI analysis of nationwide access to OCSE
     databases.

AGENCY COMMENTS
In response to our draft report, SSA agreed with our first recommendation. With regard
to our second recommendation, SSA no longer plans to conduct a study to assess the
cost and benefits of nationwide online OCSE access.

OIG RESPONSE
Since SSA no longer plans to conduct a nationwide ROI study, when disclosing the
results of the ROI based on the pilot, SSA should note that the ROI is not a statistical
projection and may duplicate reported savings from SASRO. (See Appendix A for
SSA’s comments.)




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                      10
                                             Appendices





Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)
                                                        Appendix A


Agency Comments





Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)
                                                           ~SF.c&
                                                       ~

                                                       \J'ii$;lSW

                                         SOCIAL             SECURITY


MEMORANDUM                                                                      30125-24-620




Date       May 3,2001                                                            ReferTo: SJI-3

To         JamesG. Ruse, Jr.
           Inspector General         /
                                              I
                                                  1
From'      Larry G. Massanari                      1
           Acting Commissioner of

Subject:   Office of the                  1(OIG) Draft Evaluation Report, "Review of the Social Security
           Administration's Office of Child Support Enforcement Pilot Evaluation" (A-OI-00-20006)­
           INFORMA TION



           Our comments to the subject report are attached. Staff questions may be directed to
           OdessaJ.Woods at extension 50378.

           Attachment:
           SSA Response
COMMENTS OF THE SOCIAL SECURITY ADMINISTRATION (SSA) ON
THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT EVALUATION
REPORT: REVIEW OF THE SOCIAL SECURITY ADMINISTRATION’S
OFFICE OF CHILD SUPPORT ENFORCEMENT PILOT EVALUATION
(A-01-00-20006)


We appreciate the opportunity to comment on the draft report. Following are our comments on
the recommendations.

Recommendation 1

Continue to monitor and test the security of the Office of Child Support Enforcement (OCSE)
query during the national rollout to ensure access weaknesses do not exist.

Comment

We agree. We continue to monitor the security of the OCSE query. To date, no infractions or
problems have been reported.

Recommendation 2

Ensure that the savings reported for SSA’s initiatives for online access under SSA’s Access to
State Records Online (SASRO) are factored into its planned return on investment (ROI) analysis
of nationwide access to OCSE databases.

Comment

SSA has decided that a second study to assess the cost and benefits of nationwide online OCSE
access is not needed.

During the pilot, SSA discussed the possible need for a second study to fully assess the costs and
benefits of nationwide OCSE online access. However, we determined that the pilot results were
sufficient to clearly demonstrate the benefits of online OCSE access. Thus, nationwide access to
the online OCSE query was implemented in the first quarter of calendar year 2001.

As indicated in the draft report, the Agency does not believe that the ROI developed during the
pilot was inflated since the ROI was based on a comparison between: 1) the information found
through the OCSE query; and 2) the information SSA would have had without the OCSE query
(which may have included SASRO data). Also, as indicated in the report, the Agency believes
the impact of SASRO wage data in the pilot study was negligible because the overlap (offices
with OCSE and SASRO wage queries) was minimal. Although it is true that a statistical
projection of ROI could not be made based on the pilot results (because the FOs involved were
not randomly selected), the results clearly demonstrated the benefits of online OCSE access.




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)                                          A-2
                                                                       Appendix B

OIG Contacts and Staff Acknowledgments

    Rona Rustigian, Acting Director, Disability Program Audit Division, (617) 565-1819

    Judith Oliveira, Acting Deputy Director, (617) 565-1765

For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-01-00-20006.




Review of SSA’s OCSE Pilot Evaluation (A-01-00-20006)
                           DISTRIBUTION SCHEDULE


                                                                             No. of
                                                                            Copies

Commissioner of Social Security
                                                 1
Management Analysis and Audit Program Support Staff, OFAM
                      10
Inspector General
                                                               1
Assistant Inspector General for Investigations
                                  1
Assistant Inspector General for Executive Operations
                            3
Assistant Inspector General for Audit
                                           1
Deputy Assistant Inspector General for Audit
                                    1
 Director, Systems Audit Division
                                               1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders
                                                        25
Income Maintenance Branch, Office of Management and Budget
                      1
Chairman, Committee on Ways and Means
                                           1
Ranking Minority Member, Committee on Ways and Means
                            1
Chief of Staff, Committee on Ways and Means
                                     1
Chairman, Subcommittee on Social Security
                                       2
Ranking Minority Member, Subcommittee on Social Security
                        1
Majority Staff Director, Subcommittee on Social Security
                        2
Minority Staff Director, Subcommittee on Social Security
                        2
Chairman, Subcommittee on Human Resources
                                       1
Ranking Minority Member, Subcommittee on Human Resources
                        1
Chairman, Committee on Budget, House of Representatives
                         1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                       1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                   Office of Executive Operations
OEO supports the OIG by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and human
resources. In addition, this office is the focal point for the OIG’s strategic planning function and
the development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques; and
3) legal implications and conclusions to be drawn from audit and investigative material produced
by the OIG. The Counsel’s office also administers the civil monetary penalty program.
